      Department of Homeland Security



      Costs Claimed by Bristol Township Volunteer Fire 

     Department under Fire Station Construction Grant 

                 No. EMW-2009-FC-01627R 





            American Recovery and Reinvestment Act of 2009



OIG-12-97                                                    July 2012

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov




                                JUL 1 3 2012
MEMORANDUM FOR:              Elizabeth M. Harman
                             Assistant Admin istrator
                             Grant Programs Directorate
                             Federal Emergency Management Agency

FROM:                        Anne L. Richards    ~;;!~
                             Assistant Inspector General for Audits

SUBJECT:                     Costs Claimed by Bristol Township Volunteer Fire
                             Department Under Fire Station Construction Grant
                             No. EMW-2009-FC-01627R

Attached for your information is our final letter report, Costs Claimed by Bristol
Township Volunteer Fire Department Under Fire Station Construction Grant No. EMW-
2009-FC-01627R. We incorporated the formal comments from the Office of Policy and
Program Ana lysis, Federal Emergency Management Agency (FEMA), in the fina l report.

The report contains one recommendation for FEMA to resolve $21,164 of questionable
costs that Bristol Township Volunteer Fire Department claimed for reimbursement. The
Office of Policy and Program Ana lysis concurred with the recommendation and said that
FEMA will take steps to resolve the questioned costs. As prescribed by Department of
Homeland Security Directive 077-1, Follow-Up and Resolutions for the Office of
In spector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target comp letion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and eva lu ated , the recommendation s
will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Roger La Rouche, Director of Recovery Act Aud its;
Matthew Mongin, Auditor; and Kevin Donahue, Report Referencer.
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Please call me with any questions, or your staff may contact John E. McCoy II,
   Deputy Assistant Inspector General for Audits, at (202) 254-4100.

   Attachment




www.oig.dhs.gov                                2                                    OIG-12-97
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   The American Recovery and Reinvestment Act of 2009 (Recovery Act), as amended,
   appropriated $210 million to FEMA for competitive grants for modifying, upgrading, or
   constructing non-Federal fire stations. Effective September 25, 2009, FEMA awarded a
   grant of $2,235,191 to the Bristol Township Volunteer Fire Department (Fire
   Department) for constructing a new fire station.

   The grant specified a period of performance from September 25, 2009, to September 24,
   2012. As of October 30, 2011, the Fire Department had completed construction of the
   new fire station (figure 1) and had received reimbursements of $1,927,826 from FEMA
   for project design, engineering, construction, and management.




   Figure 1. New Bristol Township Fire Station
   Source: Bristol Township Volunteer Fire Department.

   Under the terms of the grant, the Fire Department agreed to use the grant funds
   according to FEMA’s American Recovery and Reinvestment Act Assistance to Firefighters,
   Fire Station Construction Grants, Guidance and Application Kit (Guidance and
   Application Kit), and to comply with Office of Management and Budget (OMB) Circular
   A-87, Revised, Cost Principles for State, Local and Indian Tribal Governments (2 CFR Part
   225) and the Uniform Administrative Requirements for Grants and Cooperative
   Agreements to State and Local Governments in 44 Code of Federal Regulations (CFR)
   Part 13.

   The grant also includes requirements for complying with OMB Circular A-133, Revised,
   Audits of States, Local Governments, and Non-Profit Organizations, and Recovery Act
   provisions for submitting quarterly recipient reports to the Federal Government on the




www.oig.dhs.gov                                3                                       OIG-12-97

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   use of Recovery Act funds; paying prevailing wages as determined by the Secretary of
   Labor; and using American-made iron, steel, and manufactured goods.


   Results of Audit
   Of the $1,927,826 claimed for reimbursement by the Fire Department, we questioned
   $21,164 claimed for a security system and parts of a telephone system that were not
   eligible for reimbursement under the grant. We concluded that the Fire Department
   complied with grant requirements for submitting required Recovery Act reports to the
   Federal Government and for ensuring that contractors were paid prevailing wages, and
   used American-made iron, steel, and manufactured goods in the construction of the
   new fire station.

   Ineligible System and Equipment ($21,164)

   We questioned costs of $21,164 for a system and equipment that are not eligible for
   reimbursement according to FEMA’s program guidance.

   Ineligible Security System – $14,361

   The Fire Department claimed $14,361 for the purchase and installation of electronic
   door locks on the interior and exterior doors of the new fire station. This system uses
   individual key cards for each authorized user and has a master controller that records
   access by card users. We questioned the costs because FEMA’s Guidance and
   Application Kit identifies security systems as an ineligible cost for the fire station
   construction grant.

   Ineligible Telephone System – $6,803

   The Fire Department claimed $12,991 for the purchase and installation of a telephone
   system providing communications for the new fire station. We contacted FEMA
   regarding the eligibility of telephone systems under the station construction grant
   because the Guidance and Application Kit does not list telephone systems as eligible or
   ineligible for reimbursement. FEMA advised us that installation of telephone wiring is
   eligible under the grant, but telephone sets, switching panels, and accessories are not
   eligible. We determined that the Fire Department paid $6,188 for the eligible telephone
   system wiring and its installation. We questioned the remaining $6,803 because it was
   for ineligible phones and related equipment.




www.oig.dhs.gov                                4                                       OIG-12-97
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Compliance With Requirements for Reporting, Buying American, and Paying Prevailing
   Wages

   The Recovery Act requires recipients to submit quarterly reports on funds received and
   project activities to the Federal Government. The Recovery Act also stipulates that
   grantees use American-made iron, steel, and manufactured goods and that laborers and
   mechanics be paid, at a minimum, prevailing wages as determined by the Secretary of
   Labor under 40 U.S.C. Chapter 31, Subchapter IV. We verified that the Fire Department
   submitted the required quarterly reports. In addition, we confirmed that the Fire
   Department included the prevailing wage requirement in its public solicitation for
   construction bids and the manufacturing source identification requirements in the
   building specifications. Moreover, the project architect instituted sufficient controls to
   ensure that these provisions were honored. Controls included a requirement for
   subcontractors to comply with the provisions, review and certification of all invoices and
   onsite inspection by the architect, and a requirement for vendors/contractors to submit
   vouchers showing payment of prevailing wages

   Recommendation
   We recommend that the Assistant Administrator, Grant Programs Directorate:

   Recommendation #1:

   Resolve the questioned costs of $21,164 pertaining to the security system and parts of the
   telephone system that were claimed for reimbursement but not eligible under the grant.

   Management Comments and OIG Analysis
   FEMA provided formal comments to our draft report, which are included as appendix B.

   FEMA Comments to Recommendation #1

   FEMA concurred with the recommendation. In lieu of asking the Fire Department to
   return the funds, FEMA is allowing the Fire Department the “opportunity” to submit a
   proposal to substitute $21,164 of eligible program costs that were not included in the
   scope of work of the initial grant. FEMA will request that the Fire Department submit
   the proposal within 90 days of its receipt of FEMA’s grantee notification memorandum
   transmitting the final audit report.




www.oig.dhs.gov                                5                                       OIG-12-97
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   OIG Analysis

   FEMA adequately addressed the recommendation. The recommendation, however, will
   remain unresolved and open until FEMA provides a target completion date or evidence
   that proposed substitute costs are eligible and of a sufficient amount to offset the
   questioned costs of $21,164 and amends the grant agreement to provide for the
   substitute costs.




www.oig.dhs.gov                             6                                     OIG-12-97
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of the audit was to determine whether costs invoiced were allowable,
   allocable, and reasonable according to the grant agreement and applicable Federal
   requirements. The audit covered costs of $1,927,826 claimed by the Fire Department
   from July 2010 to September 2011 and reimbursed by FEMA.

   In conducting our audit, we—

       •	 Obtained and reviewed the Recovery Act, the grant application and award, the
          grant Guidance and Application Kit, and Federal cost principles and grant
          administrative requirements;

       •	 Interviewed Fire Department personnel to gain an understanding of their
          accounting system and the applicable internal controls;

       •	 Reviewed the independent auditor’s fiscal year 2010 single audit report and
          interviewed the responsible auditor to identify issues and other conditions that
          could affect our examination;

       •	 Reviewed the recipient’s internal controls specifically related to our objectives;

       •	 Examined vendor invoices and other evidence supporting 100 percent of costs
          incurred and claimed for FEMA reimbursement;

       •	 Reviewed accounting transactions related to purchases, payments, and receipt
          of FEMA reimbursements;

       •	 Used the grant provisions and applicable Federal requirements to determine
          whether amounts claimed were eligible for reimbursement;

       •	 Performed fraud detection procedures; and



www.oig.dhs.gov                                 7	                                      OIG-12-97
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


       •   Inspected the new fire station and surrounding property.

   We conducted this performance audit between October 2011 and February 2012,
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                               8                                      OIG-12-97
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Letter Report

                                                                                       U.S. [)cparlmcllf of Homelund Secu r il}'
                                                                                       Washill),'\UIl. DC 204 72




                                                   MAy 3 f 1012" -



              MEMORANDUM FOR:               Anne L. Richards
                                            Assistant inspector General for Audits
                                            Orfict:: urthe Inspector General

              FROM:                         f}avid J . Kaufman /2;::; ______
                                            Director          7-  v-
                                            Office of Policy and Program Analysis

              SUBJECT :                     Comments to UIG Draft Report, Review a/Costs Claimed by lJristol
                                            Township. Oh io. Vuhlllleer Fire D eparlmcml, Bris lu/viJIe. Ohio, Under
                                            Fire Statioll COl1struCtiOIl Gral1l Nrmtbcr EMW-2009-FC-O/627R



              The Federal Emergency Management Ageney (FEMA) appreciates th!! opJXJrtuni ty to review and
              respond to the Department of Homeland Security (DHS) Offi ce oflnspeetor General (OIG) Draft
              Report. As noted in our responses to your recommendations, below - FEMA is continuing to work
              to resolve the issues identified in the aud it.

              O IG Recommendation #1: We recommend that the Assistant Adm ini strator, Grant Programs
              Directorate, resolve the questioned costs of$2 1. 164 pertaining to the security system and parts of the
              telephone system that were claimed for reimbursemcnt but not el igible undcr thc grant.

              FEMA Response to the Draft Report: FEMA concurs with this recommendatio n.

              FEMA agrees that the telephone and security system expenses are ineligibl e under the Station
              Construction Grant (SCG) Program. Rather than requesti ng that the department return the funds to
              FEMA, FEMA will al low the department an opportunity to seek an altemative resolution. FEMA
              will request that the department submit a proposal to substitute a minimum o fS2 l , l64 worth of
              el igible expenses toward the SeG Program that were not originally included in their awarded scope
              of work. FEMA wi ll request that the depanmem submit Ihal proposal within 90 days of their rect::ipt
              of the final rcport with the grantce notification memorandum. If the proposal is acceptable, FEMA
              will amend their grant to incur these charges toward the sca program as replacement for the
              ineligible costs. The ineligible security and phone system would then be considered expenses
              outside of the grant and paid to r by the department.

              FEMA requests that this recommendation be considered resolvcd and open pending the grantee's
              implementation of this corrective action plan.

                                                                                      www.r~"Im. gov




www.oig.dhs.gov                                                9                                                                   OIG-12-97
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              Again. we thank you for the opportunity to review your report. If you have further questions. please
              do not hesitate to call Gina Norton, FEMA Audit Liaison Office, 202-646-4287.




                                                               2




www.oig.dhs.gov                                             10                                                       OIG-12-97
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix C
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Recovery Act Coordinator
   Administrator, Federal Emergency Management Agency
   Federal Emergency Management Agency Audit Liaison Office

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                            11                              OIG-12-97
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or fax it
directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
